                 U.S. Department of Agriculture

                    Office of Inspector General
                                Western Region




       Audit Report
  Grain Inspection, Packers
And Stockyards Administration
 Management And Security Of
   Information Technology




                        Report No. 30099-1-SF
                              November 2003
Executive Summary
Grain Inspection, Packers and Stockyards Administration, Management And Security
Of Information Technology (Audit Report No. 30099-1-SF)

Results in Brief    This report presents the results of our audit of management and security over
                    information technology (IT) resources within the Grain Inspection, Packers
                    and Stockyards Administration (GIPSA). Our overall objective was to assess
                    GIPSA’s information system security program. Specifically, we reviewed
                    the adequacy of GIPSA’s security over its systems and network, its logical
                    and physical access controls, and its controls over the modification of
                    application software programs.

                    GIPSA’s information systems contain confidential and proprietary data
                    obtained from private companies relating to transactions involving grains and
                    livestock. GIPSA also monitors the shipments of these commodities within
                    the United States and maintains a centralized repository of this data.

                    Our audit, which involved electronic vulnerability scans of GIPSA’s systems,
                    identified control weaknesses that, if not corrected, could expose GIPSA’s
                    network to internal and external intrusions. Our scans of GIPSA’s network
                    revealed 200 high and medium-risk vulnerabilities that could allow
                    unauthorized access to that network. The likelihood that such access could
                    occur and go undetected was increased by an inadequate system of firewalls
                    and intrusion detection devices between GIPSA and the rest of the USDA
                    network. GIPSA’s logical and physical controls also needed strengthening to
                    eliminate unsecured dial-in access and unrestricted entry to the computer
                    room. For the convenience of its users, GIPSA had maintained the unsecured
                    dial-in access. Due to a lack of guidance on how vulnerability scans were to
                    be conducted, GIPSA’s IT staff had conducted scans at a level too low to
                    identify all vulnerabilities

                    We concluded GIPSA needs to improve its system security administration
                    and ensure compliance with Federal requirements for managing and securing
                    IT resources. Specifically, GIPSA administrators should have (1) conducted
                    the necessary risk assessments of the GIPSA network; (2) properly certified
                    the agency’s mission-critical systems; (3) updated and approved GIPSA’s
                    security plans; (4) developed, implemented, and tested the IT contingency
                    plan; and (5) ensured proper security clearances were obtained for IT staff.
                    These actions were not done because of insufficient oversight by GIPSA’s IT
                    management.

                    Finally, our review disclosed that GIPSA’s IT staff needed to improve its
                    management over mission-critical applications. GIPSA’s IT staff did not
                    follow proper application change control procedures and did not build in
                    logical controls in a major application. This occurred because GIPSA’s CIO
USDA/OIG-AUDIT/30099-1-SF                                                                  Page i
                                     AUDIT REPORT
                   had not established the needed controls. The lack of controls could leave the
                   agency’s mission-critical applications vulnerable to misuse and could directly
                   affect key operations such as inspection, billing and trading information.

Recommendations
in Brief           In the area of system vulnerabilities and access controls, we recommend
                   GIPSA take immediate action on the high and medium vulnerabilities
                   identified by the Office of Inspector General (OIG) scans and run all future
                   vulnerability scans at the appropriate levels.         Also, GIPSA should
                   immediately remove the unsecured method of dial-in access; develop secure
                   procedures for remote dial-in access and the handling and reporting of
                   security incidents; and establish an intrusion detection system between the
                   GIPSA network and the USDA Backbone.

                   In the area of system security administration, we recommend GIPSA
                   establish risk assessment procedures and perform risk assessments of its
                   mission-critical systems. GIPSA should establish and implement procedures
                   requiring security plans to be reviewed, tested, and updated on an annual
                   basis. GIPSA should develop a comprehensive contingency plan and ensure
                   the contingency plan is tested and updated at least on an annual basis. Also,
                   GIPSA should obtain security clearances for 12 IT employees. In addition,
                   GIPSA needs to strengthen its physical access control to its computer room.

                   In the area of application life cycle controls, we recommend GIPSA develop
                   proper application change control procedures. GIPSA should also ensure
                   application changes are authorized and approved by management and it
                   should implement logical access controls at grain export elevator
                   workstations.

Agency Response    In its written response to the audit report, GIPSA concurs with all the audit
                   findings and accepts 23 of the 24 recommendations. For recommendation
                   number 7, GIPSA believes the iron bars on the server room windows are
                   unnecessary because the server room is three stories up and faces the inside
                   of a courtyard. An armed guard protects the courtyard when open and
                   secured with an iron gate when the area is closed. The complete written
                   response is shown in Exhibit A of the audit report.

OIG Position       Based on GIPSA’s written response, OIG accepts GIPSA’s management
                   decision for 17 of the 24 audit recommendations.




USDA/OIG-AUDIT/30099-1-SF                                                                 Page ii
                                    AUDIT REPORT
Abbreviations Used in This Report

APHIS          Animal and Plant Health Inspection Service
CIO            Chief Information Officer
COOP           Continuity of Operations Plan
GAO            General Accounting Office
DAA            Designated Approval Authority
DM             Departmental Manual
DR             Departmental Regulation
FGIS           Federal Grain Inspection Service
GIPSA          Grain Inspection, Packers and Stockyards Administration
ISSPM          Information System Security Program Manager
IT             Information Technology
JFMIP          Joint Financial Management Improvement Program
LAN            Local Area Network
MOU            Memorandum of Understanding
NIST           National Institute of Standards and Technology
OCFO           Office of the Chief Financial Officer
OCIO           Office of Chief Information Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
OPM            Office of Personnel Management
P&S            Packers and Stockyards
TCP/IP         Transmission Control Protocol / Internet Protocol
VPN            Virtual Private Network
USDA           U. S. Department of Agriculture




USDA/OIG-AUDIT/30099-1-SF                                                Page iii
                                      AUDIT REPORT
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. System Vulnerabilities.................................................................................................... 3

        Finding 1             GIPSA Vulnerability Scans Did Not Detect Vulnerabilities Within Its Own
                              Network................................................................................................................... 3
                                   Recommendation No. 1.................................................................................... 5
                                   Recommendation No. 2.................................................................................... 6
                                   Recommendation No. 3.................................................................................... 6
        Finding 2             Access Controls Need to be Strengthened .............................................................. 7
                                   Recommendation No. 4.................................................................................... 9
                                   Recommendation No. 5.................................................................................... 9
                                   Recommendation No. 6.................................................................................. 10
                                   Recommendation No. 7.................................................................................. 10
        Finding 3             Intrusion Detection Controls Were Inadequate ..................................................... 11
                                   Recommendation No. 8.................................................................................. 12
                                   Recommendation No. 9.................................................................................. 12
        Finding 4             Chief Information Officer had Administrative Privilege ...................................... 13
                                   Recommendation No. 10................................................................................ 14

    Section 2. Security Program Management of Information Technology Resources ................ 15

        Finding 5             No Risk Assessments Were Performed................................................................. 15
                                  Recommendation No. 11................................................................................ 16
                                  Recommendation No. 12................................................................................ 16
        Finding 6             Mission-Critical Systems Were Not Certified....................................................... 17
                                  Recommendation No. 13................................................................................ 17
                                  Recommendation No. 14................................................................................ 18
        Finding 7             Security Plans Were Not Properly Updated and Approved .................................. 18
                                  Recommendation No. 15................................................................................ 20
                                  Recommendation No. 16................................................................................ 20
        Finding 8             GIPSA Did Not Have an IT Contingency Plan..................................................... 21
                                  Recommendation No. 17................................................................................ 22
        Finding 9             Required Security Clearances For IT Staff Were Not Obtained ........................... 22
                                  Recommendation No. 18................................................................................ 23
                                  Recommendation No. 19................................................................................ 23

USDA/OIG-AUDIT/30099-1-SF                                                                                                                      Page iv
                                                               AUDIT REPORT
    Section 3. Application Life Cycle Controls ................................................................................. 25

        Finding 10            Proper Application Change Controls Were Not Established ................................ 25
                                  Recommendation No. 20................................................................................ 26
                                  Recommendation No. 21................................................................................ 26
                                  Recommendation No. 22................................................................................ 27
        Finding 11            Password Controls Not Established To Secure Access to a Major
                              Application ............................................................................................................ 27
                                  Recommendation No. 23................................................................................ 28
                                  Recommendation No. 24................................................................................ 28

General Comment................................................................................................................................. 30

Scope and Methodology........................................................................................................................ 31

Exhibit A – Agency Response .............................................................................................................. 32

Glossary of Terms ................................................................................................................................. 43




USDA/OIG-AUDIT/30099-1-SF                                                                                                                      Page v
                                                              AUDIT REPORT
Background and Objectives
Background         The mission of the Grain Inspection, Packers and Stockyards Administration
                   (GIPSA) is to administer uniform, national grain inspection and weighing
                   programs and promote the integrity of livestock, meat, and poultry markets to
                   ensure a productive and competitive global marketplace for U.S. agriculture
                   products. This includes establishing and maintaining official U.S. grain
                   standards and promoting the uniform procedures for official inspections; and
                   fostering fair and open competition to guard against deceptive and fraudulent
                   practices that affect the demand and price of meat and their products.

                   In September 1998, the General Accounting Office released a report to the
                   Committee on Government Affairs, U.S. Senate, entitled, “Serious
                   Weaknesses Place Critical Federal Operations and Assets at Risk.” The
                   report states widespread and serious weaknesses in the Federal Government’s
                   ability to adequately protect Federal assets from fraud and misuse, sensitive
                   information from inappropriate disclosure, and critical operations from
                   disruption. The report notes that individual agencies have not yet done
                   enough to effectively address these problems, including instituting
                   procedures for ensuring that risks are fully understood and implementing
                   controls to mitigate these risks.

                   Presidential Decision Directive 63, Policy on Critical Infrastructure
                   Protection, issued May 22, 1998, states that critical infrastructures are those
                   systems essential to the minimum operation of the economy and Government
                   and includes telecommunications, banking and finance, energy,
                   transportation, and other essential government services. The Directive states
                   that the Government will take all necessary measures to swiftly eliminate any
                   significant vulnerability to both physical and cyber attacks on our critical
                   infrastructures, with particular emphasis on information technology (IT)
                   systems.

                   Information security, improving the overall management of IT resources, and
                   the transition to electronic business (e-Government), has emerged as a top
                   priority within the U.S. Department of Agriculture (USDA). Prior Office of
                   Inspector General (OIG) reviews have identified noncompliance with
                   federally mandated laws, regulations, and guidance relating to the
                   management and security of information technology resources.               As
                   technology has enhanced the ability to share information instantaneously
                   among computers and networks, it has also made organizations more
                   vulnerable to unlawful and destructive penetration and disruptions. Threats
                   range from those posed by insiders, and recreational and institutional hackers
                   to attacks by intelligence organizations of other countries.

USDA/OIG-AUDIT/30099-1-SF                                                                  Page 1
                                    AUDIT REPORT
                   The kinds of cyber-assets that USDA must protect include:

                            Billions of dollars in Federal payroll, thrift savings, and other
                            accounts at the National Finance Center for USDA, and other Federal
                            agencies;
                            Market-sensitive data on commodities and the agricultural economy;
                            Personal information for both employees and customers, including
                            social security numbers, health, business and financial data;
                            Sign-up and participation information, and other information critical
                            to the delivery of USDA’s programs;
                            Geological Information Systems, ecological, environmental, soil and
                            other scientific data; and
                            Research data.

                   Protecting these critical assets must be a top priority for USDA’s program
                   managers as well as information technology staffs, especially as the
                   Department makes more programs and information available over the
                   Internet. The Internet was designed to be an open system with no regard for
                   security. While new security standards are continually being developed,
                   safeguards such as encryption, data backup procedures and controls, network
                   intrusion detection systems, disaster recovery and contingency planning can
                   be employed to afford some degree of security. However, the Department
                   will only be as secure as its weakest link.

                   The USDA OIG, Financial and Information Technology Operations (FITO),
                   conducted nationwide audits of selected USDA agencies to assess the overall
                   management and security of major USDA computer systems. GIPSA was
                   one of several agencies selected for review as part of the nationwide audit of
                   USDA mission-critical systems. A nationwide audit report will be issued to
                   the OCIO by FITO.

                   GIPSA has identified 10 mission-critical systems. The GIPSA computer
                   systems are operated to provide general computing resources including data
                   communications, software, and hardware for approximately 800 GIPSA
                   employees nationwide.

Objectives         Our audit objectives were to (1) assess the overall management of GIPSA’s
                   Information System Security Program, (2) determine the adequacy of the
                   security over the local and wide area networks, and identify vulnerabilities in
                   Departmental payment/data systems, (3) determine if adequate logical and
                   physical access controls exist to protect computer resources against
                   unauthorized modification, disclosure, loss, or impairment, (4) evaluate the
                   controls over the modification of application software programs to ensure
                   that only authorized modifications are implemented, and (5) determine the
                   adequacy of controls over access to and modification of system software and
                   data transmission.
USDA/OIG-AUDIT/30099-1-SF                                                                  Page 2
                                     AUDIT REPORT
Findings and Recommendations
Section 1. System Vulnerabilities

                                 Our audit identified control weaknesses, which, if not corrected, could expose
                                 GIPSA’s network to internal and external attacks. First, our assessment of
                                 GIPSA’s network revealed 200 high and medium-risk vulnerabilities, which
                                 could allow unauthorized access to GIPSA’s network. GIPSA IT staff had
                                 conducted vulnerability scans but ran their scans at a level that did not allow
                                 them to identify all vulnerabilities. Second, we found security weaknesses in
                                 GIPSA’s logical and physical access controls. Finally, we noted that
                                 GIPSA’s network was not adequately protected by a system of firewalls and
                                 intrusion detection devices. Unless these conditions are corrected, GIPSA’s
                                 network is not only vulnerable to internal and external attacks, but the agency
                                 will be unable to detect such violations when they occur.


Finding 1                        GIPSA Vulnerability Scans Did Not Detect Vulnerabilities Within
                                 Its Own Network

                                 GIPSA did not properly conduct vulnerability scans that would allow it to
                                 identify vulnerabilities within its network. This occurred because there were
                                 inadequate procedures or guidelines from the Office of Chief Information
                                 Officer (OCIO) on how the vulnerability scans were to be conducted.
                                 Therefore, GIPSA personnel did not use all the functionality of the scanning
                                 software tool and ran their scans at levels that did not allow them to identify
                                 all vulnerabilities. As a result, GIPSA officials were not aware that their
                                 systems and networks were vulnerable to cyber-related attacks that could
                                 jeopardize the integrity and confidentiality of GIPSA’s mission-critical
                                 systems.

                                 OMB A-130, Appendix III1 requires agencies to assess the vulnerability of
                                 information system assets, identify threats, quantify the potential losses from
                                 threat realization, and develop countermeasures to eliminate or reduce the
                                 threat or amount of potential loss. In addition, USDA Departmental
                                 Regulation 31402 establishes policies to ensure comprehensive security
                                 programs are in place to safeguard all information technology resources.
                                 USDA managers must ensure security is in place to protect against accidental
                                 or deliberate alteration, destruction, delay, theft, or access to systems, data,
                                 applications, equipment and telecommunications.

                                 We conducted an assessment of GIPSA’s networks during the week of

1
    OMB A-130, Appendix III, Section B, dated November 30, 2000
2
    USDA Departmental Regulation 3140, dated May 15, 1996
USDA/OIG-AUDIT/30099-1-SF                                                                                 Page 3
                                                      AUDIT REPORT
                   December 2, 2002. We used two commercially available software products –
                   one designed to identify security vulnerabilities associated with various
                   operating systems that use Transmission Control Protocol/Internet Protocol
                   (TCP/IP), and the other designed to test system policy setting in the
                   networks. The software products perform tests on an agency’s computer
                   systems, identify vulnerabilities, and prioritize them into high, medium and
                   low risks. The software also generates a report that suggests corrective
                   actions.

                   TCP/IP System Vulnerabilities

                   GIPSA’s computer system consists of numerous computers and routers
                   connected together into the agency’s network. The Department’s CIO
                   maintains the backbone telecommunication lines, router, and equipment to
                   run the Departments “backbone network”. Agencies such as GIPSA obtain
                   their connection to National Information Technology Center, National
                   Finance Center, and the Internet by connecting to this backbone.

                   We conducted our tests of the TCP/IP systems in coordination with GIPSA’s
                   IT staff. Our tests of 66 network operating systems identified 21 high-risk
                   vulnerabilities, 179 medium-risk vulnerabilities, and 523 low-risk
                   vulnerabilities. High-risk vulnerabilities are those that could allow access to
                   the computer and possibly to the network of computers. Medium-risk
                   vulnerabilities are those that could allow access to sensitive network data that
                   may lead to exploitation of other vulnerabilities. Low-risk vulnerabilities are
                   those that allow access to data that might be sensitive, but are less likely to
                   lead to higher-risk vulnerability.

                   We provided our test results to the CIO describing the vulnerabilities detected
                   and the severity of each vulnerability on them. Because of the security
                   issues involved, details of the vulnerabilities are not provided in this report.

                   Although GIPSA acquired similar scanning tools, GIPSA’s IT staff was not
                   scanning at levels that would detect all known vulnerabilities. According to
                   GIPSA’s IT staff, they were advised during a training course on using the
                   scanning software that performing vulnerability scans at level 3 would be
                   sufficient to catch all known vulnerabilities. There were no Departmental
                   procedures or guidelines on how the vulnerability scans should be conducted.
                   The scanning software has five levels, 1 through 5, and the higher the level,
                   the more in-depth the scan. Level 1, the lowest setting, only identifies
                   operating systems running on the network with no check for weaknesses; on
                   the other hand, level 5 would check for compromises by highly skilled
                   attackers and identify weaknesses in a system’s configuration. GIPSA’s staff
                   only performed their vulnerability scans at levels 1 through 3 while OIG’s
                   vulnerability scans were performed at levels 4 and 5. As a result, GIPSA’s
                   scanning results did not identify the high-risk and medium-risk vulnerabilities
USDA/OIG-AUDIT/30099-1-SF                                                                   Page 4
                                    AUDIT REPORT
                                   disclosed by OIG’s scans.

                                   OCIO procedures3 state that scans are supposed to be performed on a
                                   monthly basis for all networks, systems, and servers by duly authorized users.
                                   However, we found GIPSA’s vulnerability scans were not performed on a
                                   monthly basis. According to Information System Security Program Manager
                                   (ISSPM), the vulnerability scans were not conducted on a monthly basis due
                                   to a lack of staff with the knowledge to operate the scanning software tool.

                                   Network Operating System Vulnerabilities

                                   We also conducted a detailed assessment of the security over GIPSA’s
                                   network operating systems.            Our assessment software provided
                                   comprehensive scans covering logical access controls; such as, user account
                                   characteristics, password controls, and many other security features. Our
                                   review of the scanning results disclosed the following weaknesses in account
                                   restrictions and access control, the areas that define a user’s ability to access
                                   the system:

                                       •    Five users had nonexpiring passwords. These users were not forced
                                            to change their password at normal intervals like the rest of the users
                                            on the network and there were no justification for this privilege.

                                       •    Seven users had privileges on their user profile to dial-in to the
                                            GIPSA network, which were unnecessary. GIPSA users do not need
                                            these privileges on their user profile active in order to dial-in to the
                                            GIPSA network.

                                   We discussed the findings on TCP/IP System Vulnerabilities and Network
                                   Operating System Vulnerabilities with GIPSA’s IT staff. The GIPSA IT staff
                                   promptly took corrective measures on the high-risk vulnerabilities identified
                                   and provided us with the documented support. At the time of our review,
                                   GIPSA’s staff was still resolving the medium-risk vulnerabilities. We did not
                                   follow up on the low-risk vulnerabilities because they did not relate to a
                                   direct threat to the computer system. GIPSA staff also took immediate action
                                   on the non-expiring passwords and dial-in privileges on users accounts. The
                                   issue relating to the lack of Departmental guidance on scanning will be
                                   covered in the nationwide audit report to the OCIO by FITO.

Recommendation No. 1

                                   Take immediate action to correct the all medium vulnerabilities identified by
                                   OIG’s vulnerability scans and conduct a rescan to ensure that the
                                   vulnerabilities identified by OIG have actually been corrected.

3
    CS-07, Security Vulnerability Scan Procedures, dated September 5, 2001
USDA/OIG-AUDIT/30099-1-SF                                                                                    Page 5
                                                         AUDIT REPORT
                   Agency Response.

                   GIPSA accepts the recommendation.               GIPSA’s Network and
                   Telecommunications Branch took immediate action and corrected all high
                   and medium vulnerabilities identified. A rescan was conducted to insure the
                   vulnerabilities identified were corrected.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO of the rescan showing that all high and medium
                   vulnerabilities were corrected.

Recommendation No. 2

                   Run all future vulnerability scans of the GIPSA network at a maximum level
                   to detect vulnerabilities and perform scans on a monthly basis.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA’s ISSPM will insure all future
                   scans are run at the maximum level to detect vulnerabilities and that scans are
                   run on a monthly basis.

                   OIG Position.

                   In order to reach management decision please provide the timeframes when
                   procedures will be in place to run all future monthly scans at the maximum
                   level.

Recommendation No. 3

                   Assess low-risk vulnerabilities to identify trends and initiate action on those
                   areas that in the aggregate could lead to more serious vulnerabilities.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA’s ISSPM will monitor low-
                   level vulnerabilities to identify trends and advise network personnel on those
                   areas that could lead to more serious vulnerabilities.




USDA/OIG-AUDIT/30099-1-SF                                                                  Page 6
                                    AUDIT REPORT
                                  OIG Position.

                                  In order to reach management decision please provide the timeframes when
                                  GIPSA’s ISSPM will be monitoring low-level vulnerabilities to identify
                                  trends and advise network personnel on those areas that could lead to more
                                  serious vulnerabilities.


Finding 2                        Access Controls Need to be Strengthened

                                 Our review disclosed serious vulnerabilities over access to GIPSA’s network.
                                 Specifically, we found that GIPSA’s management has allowed some of its
                                 users to access its network via an unsecured method of dialing in. We also
                                 observed that physical access controls to GIPSA’s new computer room need
                                 to be improved. GIPSA’s IT staff was aware of the vulnerabilities posed by
                                 the unsecured dial-in access and had drafted procedures requiring its removal.
                                 GIPSA’s Deputy Administrator, however, did not approve the procedures and
                                 wanted to keep the unsecured method of access available for the convenience
                                 of its staff. GIPSA’s CIO was also unaware of the physical security
                                 weaknesses we observed in the new computer room. These deficiencies leave
                                 GIPSA’s network vulnerable to unauthorized access, potentially jeopardizing
                                 the integrity of GIPSA’s mission-critical systems.

                                 Logical Access Controls

                                 Logical access controls protect network applications and data against theft or
                                 unauthorized modification. Logical access controls such as user names,
                                 passwords, and access permissions, ensure that only authorized users have
                                 access to network resources from their workstations, and that users are
                                 granted only the access that is needed to conduct their job responsibilities.
                                 Without strong logical access controls, privacy and financial data is subject to
                                 loss and unauthorized modification4.

                                 GIPSA’s logical access controls were weakened by an unsecured dial-in
                                 access that allowed access to the network without proper security and/or
                                 firewall protection. GIPSA's IT staff was aware of the vulnerabilities posed
                                 by the unsecured dial-in access and developed a draft policy requiring all
                                 users to use only one secure method of remote dial-in. However,
                                 management wanted to keep the unsecured dial-in access in place because
                                 certain users, accustomed to the unsecured access, complained about the
                                 connection speed and cumbersome authentication process of the secure dial-
                                 in access method. As a result, USDA and GIPSA’s networks are vulnerable
                                 because the unsecured dial-in access provides an unprotected backdoor
                                 gateway to GIPSA’s network.
4
    NIST SP800-12, Introduction to Computer Security; March 16, 1995
USDA/OIG-AUDIT/30099-1-SF                                                                                 Page 7
                                                       AUDIT REPORT
                                OMB5 defines adequate security as “security commensurate with the risk and
                                magnitude of harm resulting from the loss, misuse, or unauthorized access to
                                or modification of information. For each system, an individual should be the
                                focal point for assuring there is adequate security within the system,
                                including ways to prevent, detect, and recover from security problems.”

                                Also, Departmental Regulations6 state, “USDA agencies which access the
                                Internet must develop and implement an Internet security policy which meets
                                the minimum requirements…. The most practical method of securing access
                                to systems from the Internet is to use a secure Gateway or a firewall system.”

                                There are two methods of remote dial-up access to the GIPSA network. We
                                determined that one method was secured by the Department’s firewall
                                protection, Virtual Private Network (VPN) software, and a Public Access
                                Network7 that required three levels of authentication before allowing access
                                to the GIPSA network. In contrast, the second method of access, via
                                unsecured dial-in, was unprotected and did not have a firewall or an
                                authentication process. A user could gain access to the GIPSA network
                                without going through proper security checks. This could result in an
                                unsecured backdoor entrance into the USDA Backbone and GIPSA networks.
                                If a hacker discovered this unsecured dial-in access, the hacker could gain
                                unlimited access to the networks.

                                We concluded the draft remote dial-in procedures should be implemented
                                immediately to ensure all users connect to the network only using a secure
                                remote dial-in access with proper security and/or firewall protection.
                                Adequate security must be a top priority in assuring the integrity of the
                                Department and GIPSA’s critical systems. Proper security checks and
                                controls should take precedence over individual preference and convenience.

                                Physical Access Controls

                                The physical access controls to GIPSA’s new computer room need to be
                                strengthened to minimize the risk of unauthorized access. We determined the
                                glass window on the door of the computer room and windows facing the
                                outside inner courtyard of the building could be broken and entry could be
                                forced. According to GIPSA, no modification can be made until the agency
                                has completely moved into the new office site and building management has
                                given proper approval. Anyone who gains access to the USDA agriculture-
                                building complex could easily break these windows and enter. As a result,
                                the computer servers and related equipment were subject to the risk of theft,
                                damage, or other disruptions.
5
  OMB A-130, Appendix III, dated November 30, 2000
6
  DR 3140-2, “USDA Internet Security Policy”, dated March 7, 1995
7
  Public Access Network is neutral zone between the Department’s Backbone and Agency access where the web servers reside.
USDA/OIG-AUDIT/30099-1-SF                                                                                                   Page 8
                                                      AUDIT REPORT
                                 According to regulations,8 an agency’s physical access controls are to restrict
                                 the entry and exit of personnel from the area, such as the office building,
                                 suite, data center, or room containing a local area network (LAN) server. In
                                 addition, management controls must provide reasonable assurance that assets
                                 are safeguarded against waste, loss, unauthorized use, and misappropriation.

                                 GIPSA currently has two computer rooms, one for the Federal Grain
                                 Inspection Service (FGIS) and the other for the Packers and Stockyards
                                 (P&S) Administration. GIPSA stated it is in the process of moving its offices
                                 to a new location in the Agriculture building. One computer room will be
                                 used to house the network system for both the FGIS and the P&S
                                 Administration. This computer room has windows with no protective bars to
                                 prevent access from the outside courtyard, and a door with a glass window
                                 that provides little protection within.

                                According to GIPSA, no modifications to the computer room can be made
                                until the agency had moved into the new location and proper approval has
                                been given. The Network Branch Chief stated the Agricultural building is a
                                historic building, any modifications, such as installing protective bars on the
                                windows should be made in consultation with building management.

Recommendation No. 4

                                 Immediately remove the unsecured method of dial-in access from the GIPSA
                                 network.

                                 Agency Response.

                                 GIPSA accepts the recommendation. GIPSA has adopted OIG’s suggestion
                                 of removing the unsecured dial-in access to the GIPSA network. GIPSA will
                                 use the more secure VPN method.

                                 OIG Position.

                                 OIG accepts GIPSA’s management decision. For final action, please provide
                                 documentation to OCFO that GIPSA is now using the more secure VPN
                                 method.

Recommendation No. 5

                                Implement remote dial-in procedure to ensure that only the secure method of
                                network access is used.


8
    OMB A-123, dated June 21, 1995; and NIST SP 800-18 (5.MA.2.1), dated December 1998
USDA/OIG-AUDIT/30099-1-SF                                                                                Page 9
                                                      AUDIT REPORT
                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA now only allows VPN, a secure
                   method of access to its network.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that the procedures had been implemented.

Recommendation No. 6

                   Replace the glass window on the new computer room door with a wooden
                   panel.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA has placed a wooden panel on
                   the inside of its server room door. This keeps the historic look of the
                   building from the hallway view but precludes entry into the room by breaking
                   a glass window.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that a wooden panel has been placed on the inside of
                   its server room door.

Recommendation No. 7

                   Add protective bars to the inside or outside of GIPSA’s computer room
                   windows to mitigate any potential unauthorized entry.

                   Agency Response.

                   GIPSA rejects the recommendation. Bars on the outside windows are not
                   necessary because the server room is three stories up and faces the inside of a
                   courtyard. The courtyard is protected by an armed guard when open and
                   secured with an iron gate when the area is closed.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. GIPSA is now aware of and is
                   accepting the risk of not adding protective bars to its computer room
                   windows. No further action needs to be taken.

USDA/OIG-AUDIT/30099-1-SF                                                                 Page 10
                                    AUDIT REPORT
Finding 3                      Intrusion Detection Controls Were Inadequate

                               GIPSA did not have an internal firewall with an intrusion detection system to
                               detect network security violations. GIPSA also did not have its own
                               procedures for responding to and reporting security incidents. GIPSA
                               managers said they relied on the Department’s intrusion detection system to
                               protect their network and used the Department’s incident response procedures
                               manual as their own policy. As a result, there was no assurance that external
                               and internal intrusions to the network would be detected and prevented and
                               security incidents would be properly addressed and reported to the Office of
                               Chief Information Officer (OCIO). At the time of our review there had been
                               no known penetrations into the GIPSA computer system.

                               OMB A-1309 states that, “an agency should be able to respond in a manner
                               that both protects its own information and helps to protect the information of
                               others who might be affected by the incident…. Agencies should establish
                               formal incident response mechanisms…. To be fully effective, incident
                               handling must also include sharing information concerning common
                               vulnerabilities and threat with those in other systems and other agencies.”
                               According to guidance provided by the National Institute of Standards and
                               Technology (NIST),10 “attention to external threats to the exclusion of
                               internal threats leaves the network open to attack from the inside…important
                               systems such as internal web and email servers or financial systems should be
                               placed behind internal firewalls.”

                               The OCIO at Ft. Collins, Colorado, monitors data traffic over the USDA
                               Intranet backbone to identify any alleged intrusions against the Department’s
                               IT systems. This information is forwarded to the Department’s IT security
                               officer who in turn notifies the appropriate agency ISSPM that an intrusion
                               was attempted against their systems. The agency’s ISSPM then notifies the
                               local security officer where the incident occurred.11 It is the agency’s
                               responsibility to address and mitigate the security incident and complete a
                               security incident report for the OCIO.

                               [                                                                            ]
                               [                                                                            ]
                               [                                                                            ]
                               [                                                                            ]
                               [                                                                            ]
                               [                                                                            ]

9
  OMB A-130, Appendix III, dated November 30, 2000
10
   NIST SP 800-41, Guidelines on Firewall and Firewall Policy, dated January 2002
11
   OIG Audit Report No. 10099-1-TE, Security Over NRCS IT Resources, dated January 2002
USDA/OIG-AUDIT/30099-1-SF                                                                            Page 11
                                                    AUDIT REPORT
                   [                                                                                ]
                   [                                                                                ]
                   [                                                                                ]
                   [                                                 ]

                   [                                                                                ]
                   [                                                                                ]
                   [                                                                                ]
                   [                                                                                ]
                   [                                                                                ]
                   [                      ]

                   [                                                                                ]
                   [                                                                                ]
                   [                                                                                ]
                   [                                                                                ]
                   [                                                                    ]

Recommendation No. 8

                   [                                                                                ]
                   [                          ]

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA [                                    ]
                   [                                                                            ]
                   [               ]

                   OIG Position.

                   OIG accepts GIPSA’s management decision. [                               ]
                   [                                                                        ]
                   [              ]

Recommendation No. 9

                   Establish internal procedures for handling and reporting security incidents to
                   ensure quick mitigation and proper processing of security violations.




USDA/OIG-AUDIT/30099-1-SF                                                                Page 12
                                    AUDIT REPORT
                                   Agency Response.

                                   GIPSA accepts the recommendation. GIPSA has established internal
                                   incident handling procedures. All incidents are immediately reported to the
                                   ISSPM or GIPSA Help Desk. The ISSPM or GIPSA Help Desk contacts the
                                   appropriate personnel to assist in responding to the incident. Together, the
                                   incident is worked to mitigate security breaches and violations. An incident
                                   report is filed and kept open until the incident is resolved.

                                   OIG Position.

                                   OIG accepts GIPSA’s management decision. For final action, please provide
                                   documentation to OCFO that GIPSA has established internal incident
                                   handling and reporting procedures.


Finding 4                          Chief Information Officer had Administrative Privilege

                                   Our scans identified that the Chief Information Officer (CIO) had full
                                   administrative privileges over the network operating system. The CIO
                                   informed us that he needed this access to fulfill his oversight responsibilities
                                   over his staff and contractors. However, this level of access gave the CIO
                                   complete control to configure and modify any system on the network, a far
                                   greater control than was required for mere oversight responsibilities. As a
                                   result, there was no clear separation of duties between the day-to-day
                                   network maintenance and oversight function.

                                   NIST 800-1412 states that once a position is defined two general security
                                   rules should be assigned to a user’s access privilege—separation of duties
                                   and least privilege. Separation of duties refers to dividing roles and
                                   responsibilities so that a single individual cannot subvert a critical process.
                                   Least privilege refers to the security objective of granting users only those
                                   accesses they need to perform their official duties.

                                   We determined that the CIO should not have full administrative privileges
                                   because there is no adequate separation of duties between the administration
                                   and oversight function. Applying the least privilege concept, we determined
                                   that the CIO should have only that access needed to fulfill his oversight
                                   responsibilities. This may require read-only access to system log files, but
                                   should not include the ability to fully administer the systems on the network.

                                   The CIO was responsible for overseeing his staff, but unlike the network
                                   administrators, the CIO did not need to administer the network on a daily
12
     NIST 800-14, Principles and Practices for Securing IT Systems, dated September 1996
USDA/OIG-AUDIT/30099-1-SF                                                                                  Page 13
                                                         AUDIT REPORT
                   basis. If the CIO needs the ability to monitor his staff, then the read-only
                   option would give him the ability to check on his staff, but not the ability to
                   make any major changes to the network without a secondary review. Such
                   ability could be detrimental to system operations.

                   Adequate internal controls mandating separation of duties would require that
                   the CIO’s access be modified to provide only the access level needed to
                   fulfill his oversight responsibilities.

Recommendation No. 10

                   Remove the CIO’s administrative privilege and establish only the access
                   levels needed to fulfill his oversight responsibilities.

                   Agency Response.

                   GIPSA accepts the recommendation. Full system administrative privileges
                   have been removed from the CIO.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that the CIO no longer has full system
                   administrative privileges.




USDA/OIG-AUDIT/30099-1-SF                                                                 Page 14
                                    AUDIT REPORT
Section 2.          Security Program Management of Information Technology Resources

                                 We concluded GIPSA needs to improve its management of Information
                                 Technology (IT) resources, and ensure compliance with Federal requirements
                                 for managing and securing IT resources. Specifically, we found GIPSA had
                                 not (1) conducted the necessary risk assessments of its network, (2) properly
                                 certified its mission-critical systems, (3) updated and approved its security
                                 plans, (4) developed and implemented an adequate contingency plan, and
                                 (5) obtained proper security clearances for its employees. Also, GIPSA did
                                 not establish procedures to ensure the security controls were properly tested
                                 for applicability and effectiveness. This resulted from insufficient oversight
                                 by past and current IT management.


Finding 5                       No Risk Assessments Were Performed

                                GIPSA did not perform risk assessments, required by OMB A-130, of its 10
                                mission-critical systems. GIPSA’s CIO could not provide us the reason why
                                a risk assessment had not been done in the past but he stated that GIPSA
                                planned to do a risk assessment during the current fiscal year. However,
                                GIPSA had not yet completed any at the time of our audit. As a result, there
                                was limited assurance GIPSA was aware of potential vulnerabilities or threats
                                to its systems, of the value of its information if lost, and of the effectiveness
                                of its countermeasures to eliminate or reduce the threats to its mission-critical
                                system.

                                 Office of Management and Budget (OMB) A-13013 states, “the need to
                                 determine adequate security will require that a risk-based approach be used.
                                 This risk assessment approach should include a consideration of the major
                                 factors in risk management: the value of the system or application, threats,
                                 vulnerabilities, and the effectiveness of current or proposed safeguards.”
                                 According to the NIST’s Risk Management Guide for IT Systems14, “risk
                                 management is the process of identifying risk, assessing risk, and taking steps
                                 to reduce risk to an acceptable level. In addition, the risk assessment is
                                 usually repeated at least every 3 years.”

                                 GIPSA did not perform risk assessments of its mission-critical systems.
                                 However, GIPSA stated a risk assessment is one of the items to be completed
                                 by the Information Systems Security Program Manager, and the risk
                                 assessment was included in the agency’s Plan of Action and Milestone to be
                                 performed in FY 2003. However, at the time of our review, GIPSA still had
                                 not conducted the risk assessment and had no plans to conduct risk

13
     OMB A-130, Appendix III, dated November 30, 2000
14
     NIST SP 800-30, dated October 2001
USDA/OIG-AUDIT/30099-1-SF                                                                                Page 15
                                                        AUDIT REPORT
                   assessments on a routine basis.

                   GIPSA’s managers were not aware of the importance of performing a
                   comprehensive risk assessment. They stated that they had conducted scans to
                   determine potential vulnerabilities to their system. However our review noted
                   that not only were the scans that they conducted not adequate (see Finding
                   No. 1) but the scanning alone did not constitute a comprehensive risk
                   assessment review. For example, the scans did not identify all potential
                   threats and vulnerabilities to the system, nor did it measure the effectiveness
                   of current or proposed safeguards to mitigate or eliminate the potential threats
                   or vulnerabilities, areas that are covered under a comprehensive risk
                   assessment. Without a comprehensive risk assessment, GIPSA’s management
                   did not have the complete information needed to protect its mission-critical
                   system.

Recommendation No. 11

                   Perform risk assessments of its general support systems and mission-critical
                   systems.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA, with the assistance of a
                   contractor, anticipates completing the risk assessment of its General Support
                   System (WAN) by the end of the second quarter of fiscal year 2004. This is
                   the only risk assessment remaining. GIPSA had completed a program risk
                   assessment in June 2003.

                   OIG Position.

                   OIG accepts GIPSA’s management decision based on the completion of all
                   risk assessments by March 30, 2004 (end of the second quarter of fiscal year
                   2004). For final action, please provide documentation to OCFO that the risk
                   assessments as recommended has been completed.

Recommendation No. 12

                   Establish a policy requiring that risk assessments be performed at least every
                   3 years.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA will follow Departmental
                   policy requiring risk assessments be completed at least every three years.



USDA/OIG-AUDIT/30099-1-SF                                                                  Page 16
                                    AUDIT REPORT
                                 OIG Position.

                                 In order to reach management decision please provide timeframes when
                                 GIPSA will establish a policy requiring risk assessments be completed at
                                 least every three years.


Finding 6                       Mission-Critical Systems Were Not Certified

                                 GIPSA had not certified and authorized 10 mission-critical systems.
                                 According to GIPSA’s CIO, the program sections failed to establish
                                 certification-testing teams for certifying the mission-critical systems and
                                 applications and there was no followup by management. As a result, there
                                 was no assurance that GIPSA had properly established adequate security
                                 controls to protect these 10 systems.

                                 OMB A-13015 requires that a management official authorize in writing the
                                 use of each general support system based on implementation of its security
                                 plan. Management authorization is based on the managerial, operational, and
                                 technical controls being in place to ensure that the system can be operated
                                 securely. The technical evaluations are the basis for a management
                                 accreditation, or “authorization to process.”

                                 GIPSA has 10 mission-critical systems, none of which were formally tested
                                 and certified. According to GIPSA’s security plan, each major application
                                 and general support system is to undergo appropriate technical certification
                                 evaluations to ensure that all installed security safeguards are adequate. The
                                 certification of the system is based on the documented results of a system
                                 security control tests and the recommendations of the certification
                                 team/individual. Certification tests are technical evaluations that indicate
                                 how well a design/implementation meets a specified set of automated
                                 information system security requirements.

                                 According to the CIO, each program section was asked to establish a
                                 certification testing team, called the Designated Approval Authority (DAA).
                                 It was the responsibility of each program section to establish its own DAA to
                                 conduct system certification testing. However, the program sections failed to
                                 establish DAAs and there was no follow up or oversight by management to
                                 ensure that certification-testing teams were established. GIPSA needs to
                                 also make sure that IT staff is included in the system testing.

Recommendation No. 13

                                 Establish certification-testing teams (DAA), which should include members
15
     OMB A-130, Appendix III, dated November 30, 2000
USDA/OIG-AUDIT/30099-1-SF                                                                              Page 17
                                                        AUDIT REPORT
                                 of the IT staff, for system testing.

                                 Agency Response.

                                 GIPSA accepts the recommendation. GIPSA will be forming teams to
                                 include members of the IT Staff as well as DAA’s in September 2003 to
                                 begin the certification and accreditation process. GIPSA’s ISSPM will
                                 establish certification-testing teams in October 2003.

                                 OIG Position.

                                 OIG accepts GIPSA’s management decision. For final action, please provide
                                 documentation to OCFO that GIPSA’s ISSPM has established certification-
                                 testing teams to include members of IT staff.

Recommendation No. 14

                                 Ensure that all current and future mission-critical systems are properly tested,
                                 certified, and authorized.

                                 Agency Response.

                                 GIPSA accepts the recommendation. All current and future systems will be
                                 properly tested, certified, and authorized.

                                 OIG Position.

                                 In order to reach management decision please provide timeframes when
                                 procedures will be in place to properly test, certify and authorize all current
                                 and future systems.


 Finding 7                      Security Plans Were Not Properly Updated and Approved

                                 GIPSA did not have documentation to support that security plans were
                                 properly updated and approved. In addition, GIPSA did not have policies or
                                 procedures in place requiring the production, update, and periodic review of
                                 security plans. GIPSA had not established a formal certification and
                                 approval process for security plans. As a result, there was no assurance the
                                 security plans were being properly updated, certified, and approved or
                                 whether the existing plans were proper.

                                 OMB A-13016 requires agencies to prepare a security plan to provide an


16
     OMB A-130, Appendix III, dated November 30, 2000
USDA/OIG-AUDIT/30099-1-SF                                                                                Page 18
                                                        AUDIT REPORT
                              overview of the security requirements of their systems. According to NIST,17
                              by authorizing a system, a manager accepts the risk associated with it. In the
                              security plan, the manager should include the date of authorization, name,
                              title, and title of the management official who approved the plan. Also,
                              USDA Departmental Manual 314018 requires each agency to submit an
                              automated data processing security plan and an annual update to an existing
                              plan to the OCIO. In addition, NIST19 states there should be a policy that
                              requires the production, update, and review of system security plans on a
                              periodic basis or when major applications or general support systems are
                              implemented or significantly changed.

                              GIPSA has one overall general security plan for its network and 10 system-
                              specific security plans, one for each mission-critical system. Our review
                              indicated that none of the security plans were properly updated and approved
                              by management. According to the Acting Information System Security
                              Program Manager, the security plans are “living documents,” meaning that
                              updates and changes are made continuously. However, there was no
                              documentation that indicated when the changes were made or who approved
                              them. We informed management of the requirement to document any
                              updates and changes to the security plans. Specifically, the management
                              official who approves the security plans should document his/her name, title,
                              and the date on the approved plan. The CIO stated he was not aware the
                              security plans needed formal written certification and approval whenever
                              updates and changes were made.

                              We noted two of the system-specific security plans were not updated to
                              reflect the current system owner and security officer for those mission-critical
                              systems. According to Information System Security Program Manager
                              (ISSPM), for 2002 only, the OCIO waived the requirement for agencies to
                              submit their annual security plans. Although, GIPSA was not required to
                              submit their security plans to the OCIO in 2002; GIPSA was still required to
                              review, update, and document any changes to their security plans. According
                              to regulations,20 agencies are required to have a policy that requires the
                              production, update, and review of system security plans on a periodic basis or
                              when a major applications or general support system is implemented or
                              significantly changed.

                              Our review disclosed GIPSA did not have a policy that required updates and
                              review of system security plans on a periodic basis. The security plans are
                              revised and updated on an as-needed basis. In addition, GIPSA did not have
                              any evidence to indicate security plans were being reviewed periodically, at a
                              minimum on an annual basis. As a result, there was no assurance the security

17
   NIST SP 800-18, Guide for Developing Security Plans for IT Systems, dated December 1998
18
   USDA Departmental Regulation 3140-1, dated March 15, 1996
19
   NIST SP 800-18, Guide for Developing Security Plans for IT Systems, dated December 1998
20
   OMB A-130, Appendix III, dated November 30, 2000 and NIST SP 800-18, dated December 1998
USDA/OIG-AUDIT/30099-1-SF                                                                             Page 19
                                                   AUDIT REPORT
                   plans were current or effective.

Recommendation No. 15

                   Develop and implement procedures requiring that the security plan be
                   updated, certified, and reviewed on an annual basis.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA’s ISSPM has given each DAA
                   and application programmer a copy of OCIO’s CS-025 to assist them in
                   understanding the importance of up-to-date security plans. GIPSA has
                   established policy that directs annual security plans to be reviewed and
                   completed.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that procedures are in place to update, certify and
                   review the annual security plan.

Recommendation No. 16

                   Establish a formal approval process for security plans that documents the
                   name, date, and title of the approving management official.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA has established a formal
                   approval process for security plans that documents the name, date, and title of
                   the approving management official. The approving management officials
                   include the ISSPM, CIO, Deputy Administrators, and Administrators. The
                   plans are then sent to the Chief of Cyber Security, OCIO.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that GIPSA has established a formal approval
                   process for security plans that documents the name, date, and title of the
                   approving management officials.




USDA/OIG-AUDIT/30099-1-SF                                                                 Page 20
                                    AUDIT REPORT
Finding 8                         GIPSA Did Not Have an IT Contingency Plan

                                  GIPSA did not have a contingency plan to ensure that it could recover its IT
                                  operations in event of a disaster or major disruption in service. GIPSA’s CIO
                                  did not think a separate IT contingency plan was needed, since GIPSA used
                                  the Department’s Continuity of Operations Plan (COOP). However, an IT
                                  contingency plan is a separate document from the Department’s COOP since
                                  it provides for a detailed plan for restoring and recovering critical
                                  components of GIPSA’s mission-critical systems. Without an adequate IT
                                  contingency plan, GIPSA cannot be assured that its network and operations
                                  can recover quickly and effectively to accomplish its mission in the event of
                                  an emergency.

                                  OMB A-13021 requires agencies to plan for how they will continue to
                                  perform their mission or recover from the loss of application support in the
                                  event of a system failure. NIST22 states general support systems require
                                  emergency, backup, and contingency plans. Furthermore, OMB A-130 states
                                  that contingency plans should be tested insofar as untested or outdated
                                  contingency plans create the false sense of the ability to recover in a timely
                                  manner.

                                  GIPSA used the Department’s COOP, which was the boilerplate emergency
                                  plan approved and used by the Department. The Department’s COOP plan
                                  contained information on the GIPSA relocation site, the telephone contact
                                  number for key GIPSA personnel, and the delegation of authority to the
                                  deputy administrators and directors. However, it did not show the
                                  assignment of responsibilities for recovery or give detail instructions for
                                  restoring operations, and it did not identify the critical computers, equipment,
                                  software, and telecommunications hardware needed in GIPSA or the data
                                  files critical to GIPSA operations.

                                  GIPSA’s COOP plan also did not show the current condition of system
                                  security, and it did not include procedures to follow when the data/service
                                  center was unable to receive or transmit data. In addition, the plan had not
                                  been tested and was not approved by key GIPSA groups, including senior
                                  management, data center management, and program managers. Therefore,
                                  there was no assurance that the COOP plan would be effective in the event of
                                  an emergency. If GIPSA’s mission-critical systems were inoperative, there
                                  would be severe disruptions to GIPSA’s program operations.



21
     OMB A-130, Appendix III, dated November 30, 2000
22
     NIST SP 800-18, Guide for Developing Security Plans for IT Systems, dated December 1998
USDA/OIG-AUDIT/30099-1-SF                                                                                 Page 21
                                                        AUDIT REPORT
Recommendation No. 17

                                  Establish procedures to implement a contingency plan, which complies with
                                  NIST and OCIO requirements.

                                  Agency Response.

                                  GIPSA accepts the recommendation. GIPSA’s ISSPM, along with the
                                  DAA’s, and application developers are working on completing the plans.
                                  The estimated time for completion is December 2003.

                                  OIG Position.

                                  In order to reach management decision please provide the timeframes when
                                  procedures are established to implement a contingency plan.


Finding 9                         Required Security Clearances For IT Staff Were Not Obtained

                                  GIPSA had not obtained security clearances for the 12 employees with access
                                  to sensitive data in its IT staff. Of the 12 employees identified, GIPSA had
                                  initiated security clearances for 7. GIPSA’s CIO was not aware of the
                                  Federal requirements for obtaining security clearances for employees in
                                  positions classified as “public trust positions.” As a result, GIPSA has
                                  allowed employees to access critical systems and sensitive agency data when
                                  those employees maybe unsuitable for such a position of trust.

                                  Federal regulations23 state that to establish a person’s suitability for
                                  employment, appointments to positions in the competitive service require the
                                  person to undergo an investigation by Office of Personal Management
                                  (OPM) or by an agency with delegated authority from OPM to conduct
                                  investigations. Positions at the high or moderate risk levels would normally
                                  be designated as “public trust” positions. Such positions may involve policy
                                  making, major program responsibility...fiduciary responsibilities, and other
                                  duties involving access to sensitive operation or data.24

                                  Officials from GIPSA, Animal and Plant Health Inspection Service (APHIS),
                                  and Agriculture Marketing Service all met to determine if security clearances
                                  were needed for employees in public trust positions. GIPSA worked with
                                  APHIS since GIPSA relied on APHIS for all its personnel functions. Under a
                                  Memorandum of Understanding (MOU) between APHIS and GIPSA, APHIS
                                  would process the paperwork for all new hires, which would include
                                  determining if an employee needed a background investigation. OPM would

23
     5 CFR 731.104 and 106, dated January 1, 2002
24
     NIST 800-12, An Introduction to Computer Security, March 16, 1995
USDA/OIG-AUDIT/30099-1-SF                                                                              Page 22
                                                        AUDIT REPORT
                   conduct the actual background investigations for all security clearance
                   applicants.

                   GIPSA’s CIO stated APHIS was supposed to initiate background
                   investigation and security clearances for the agencies. However, APHIS
                   advised GIPSA that they would not continue their joint effort because of
                   other priorities in Homeland Security. GIPSA was forced to take the
                   initiative in obtaining proper security clearances for those employees deemed
                   priorities.

                   GIPSA has approximately 34 employees in its IT staff. We identified 12
                   employees on the IT staff who have access to sensitive data and need security
                   clearances. These include the CIO, Information Systems Security Program
                   Manager, system security officers, network administrators, and programmers.
                   We determined these positions were defined by regulations as “public trust”
                   positions. GIPSA had initiated security clearances for 7 of the 12 employees
                   in July 2002 but had not yet received clearances from OPM at that time of
                   our review. GIPSA did not initiate security clearances for the remaining five
                   employees due to an oversight by management.

Recommendation No. 18

                   Initiate security clearances for five employees that have not submitted
                   security clearance applications to OPM.

                   Agency Response.

                   GIPSA accepts the recommendation. Security clearances will be submitted
                   for all IT personnel by the end of 2003.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that OPM has received security clearance
                   applications for all of it’s IT personnel.

Recommendation No. 19

                   Formally request OPM to expedite the security clearances for employees in
                   “public trust positions.”

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA will formally request that OPM
                   expedite the security clearances for employees in IT positions by the end of
                   September 2003.
USDA/OIG-AUDIT/30099-1-SF                                                               Page 23
                                    AUDIT REPORT
                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that GIPSA has formally requested OPM to
                   expedite the security clearances for employees in IT positions.




USDA/OIG-AUDIT/30099-1-SF                                                           Page 24
                                   AUDIT REPORT
Section 3.          Application Life Cycle Controls

                                Our review disclosed that GIPSA’s IT staff needed to improve its controls
                                over mission-critical applications. GIPSA’s IT staff did not follow proper
                                application change control procedures, did not build in logical controls in a
                                major application, and did not properly link applications to prevent redundant
                                manual entries and to eliminate data entry errors. This occurred because
                                GIPSA’s CIO had not established the needed controls. The lack of controls
                                could leave the agency’s mission-critical applications vulnerable to misuse
                                and could directly affect key operations such as inspection, billing and
                                trading information.


Finding 10                      Proper Application Change Controls Were Not Established

                                Application changes were made in a manner not consistent with
                                Departmental requirements and OMB guidelines. GIPSA did not have
                                written and standardized change control procedures in place for making and
                                testing application changes. These procedures should have provided for the
                                process of documenting all changes made to an application and a separation
                                of duties between programming and placing the application changes into
                                production during the life of the application. The lack of proper application
                                change controls resulted in a higher risk of having program failure when a
                                new version of an application was put into operation. Such failure could
                                affect the billing of exporters for GIPSA administrative tonnage fees, and the
                                accuracy of the weekly grain export report for the commodity trading
                                financial market.

                                USDA DM 3200-00225 states that, “all major application systems must use a
                                change control process.” The manual requires that the process and the
                                changes made by it should be properly documented. In addition, it states that,
                                “a procedure must exist for approval and acceptance of changes. The process
                                may include a change control board or an individual who is responsible for
                                ensuring that all changes have been properly evaluated.”

                                OMB A-13026 emphasizes that “separation of duties is the practice of
                                dividing the steps in a critical function among individuals. For example, one
                                system programmer can create a critical piece of operating system code,
                                while another authorizes its implementation. Such a control keeps a single
                                individual from subverting a critical process.”

                                We interviewed three programmers responsible for the modification of 3 of
                                10 major applications to obtain an understanding of the change control

25
     USDA Departmental Manual 3200-002, dated March 3, 1988
26
     OMB A-130, Appendix III, dated November 30, 2000
USDA/OIG-AUDIT/30099-1-SF                                                                             Page 25
                                                     AUDIT REPORT
                   procedure in place. They informed us that each programmer was assigned to
                   program specific application(s). For each application, the programmer was
                   responsible to design, develop, program, modify, test the application(s), and
                   to install the application changes on to the system. We determined that each
                   programmer was responsible for making all of the necessary changes to the
                   application without any oversight by management. As a result, there was no
                   separation of duties between the programming and the placing of the
                   application changes into production.

                   We also learned from the programmers that there was no documentation in
                   place to show: 1) the request for changes; 2) who approved the
                   modifications; 3) the testing done on the modifications; 4) and who
                   authorized the implementation of the changes.

                   Lack of proper controls in (1) making software changes, (2) testing the
                   results, and (3) obtaining written approval for the changes made, could allow
                   unauthorized changes to be made on the applications. It also could result in a
                   higher risk of having program failure when a new version of the application
                   is put into operation.


Recommendation No. 20

                   Develop standardized procedures to track all changes made to major software
                   applications within GIPSA.

                   Agency Response.

                   GIPSA accepts the recommendation. GIPSA’s new Policies and Procedures
                   Guide takes into account the OCIO Policy CS-009 that addresses
                   standardized procedures for tracking changes made to major software
                   applications in GIPSA.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that GIPSA’s new Policies and Procedures Guide
                   takes into account the OCIO Policy CS-009 that addresses standardized
                   procedures for tracking changes made to major software applications.

Recommendation No. 21

                   Develop a process to have a second programmer review and verify the
                   program modification prior to implementation.



USDA/OIG-AUDIT/30099-1-SF                                                                Page 26
                                    AUDIT REPORT
                   Agency Response.

                   GIPSA accepts the recommendation. A second programmer will verify and
                   review the changes prior to implementation. This function will be addressed
                   as part of the release management function in GIPSA’s Policies and
                   Procedures guide.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. We have received a copy of
                   this procedure and verified that this change has been implemented. For final
                   action, please provide documentation to OCFO that GIPSA’s Policies and
                   Procedures guide requires a second programmer to verify and to review
                   application changes prior to implementation.

Recommendation No. 22

                   Ensure application changes are authorized and approved by system
                   development management other than the programmer.

                   Agency Response.

                   GIPSA accepts the recommendation. The DAA, application programmer,
                   and the CIO will authorize all major program changes.

                   OIG Position.

                   In order to reach management decision please provide the timeframes when
                   procedures will be established to require the DAA, application programmer,
                   and the CIO to authorize all major program changes.




Finding 11        Password Controls Not Established To Secure Access to a Major
                  Application

                   One of the grain inspection applications did not have logical controls in place
                   to ensure authorized users were verified prior to gaining access to the
                   application. This occurred because GIPSA had not established logical access
                   controls to secure access to the application. As a result, there is a greater
                   potential for unauthorized access to the software applications. Fraudulent
                   transactions such as a fake shipment or a fictitious ship log could be
                   generated from the unauthorized access. This could also result in generating
                   a wrong administrative tonnage fee billing to exporters and misrepresenting
                   the weekly grain export data to commodity traders.

USDA/OIG-AUDIT/30099-1-SF                                                                 Page 27
                                    AUDIT REPORT
                                NIST27 states that there should be controls in place to authorize and restrict
                                activities of users within the application.

                                Computers are located at grain export elevators throughout the country.
                                Users enter inspection information into the software application, without
                                being forced to use a password, in order to calculate the grain’s grade. The
                                software application then generates a log to document the export information
                                to feed into another software application responsible for billing exporters for
                                inspection services based on tonnage handled by the facility, and for
                                reporting the shipment weekly to the public for the commodity trading
                                financial market. The lack of password controls increases the risk of potential
                                unauthorized intrusions to the national database without detection.
                                Unauthorized users can vandalize the system by entering false or inaccurate
                                data, which could affect the inspection, billing, and trading information.

                                When we pointed out the absence of password controls to the CIO he agreed
                                with us that password controls were needed and would be establishing the
                                password controls to access the software application as soon as possible. At
                                the exit conference, GIPSA’s CIO mentioned that the risk of intrusion would
                                be extremely remote because there were compensating controls to detect any
                                unauthorized entry. Nevertheless, he plans to install the password controls.

Recommendation No. 23

                                Establish formal procedures to require logical access controls to secure
                                access to the application.

                                Agency Response.

                                GIPSA accepts the recommendation. The ISSPM has sent a formal request to
                                the application developer requiring logical access controls be put in place to
                                secure the grain inspection application.

                                OIG Position.

                                In order to reach management decision, please provide the timeframes when
                                the procedures will be implemented.

Recommendation No. 24

                                Implement logical access controls requiring users to log in with a password at
                                grain export elevator workstations.


27
     NIST SP 800-18, dated December 1998
USDA/OIG-AUDIT/30099-1-SF                                                                              Page 28
                                                 AUDIT REPORT
                   Agency Response.

                   GIPSA accepts the recommendation. The recommended logical access
                   controls will be included in the next deployment that is currently under way
                   and scheduled to be completed by the end of December 2003.

                   OIG Position.

                   OIG accepts GIPSA’s management decision. For final action, please provide
                   documentation to OCFO that logical access controls are in place.




USDA/OIG-AUDIT/30099-1-SF                                                              Page 29
                                   AUDIT REPORT
General Comment
                               During our review, we noted that the two applications were not electronically
                               linked to reduce the occasional data errors in manually transferring the data
                               between the two applications. The two applications were developed
                               separately. Inspection data is entered into the grain inspection application to
                               generate a ship log. The field office then manually enters the ship logs into
                               the billing application to generate invoices for billing. Per GIPSA
                               management the field offices did have controls in place, such as
                               reconciliation procedures, to ensure that all the ship logs had been entered
                               completely and accurately into the billing application for processing.
                               However, occasional data entry errors do occur, but are corrected within a
                               billing cycle of 30 days; therefore not affecting the financial statements.
                               GIPSA agrees that the benefit of linking the two applications would reduce
                               the redundant efforts of entering support grain inspection information. It
                               would also help to eliminate occasional data errors transferring information
                               from one application to another.

                               The Joint Financial Management Improvement Program (JFMIP)28 requires
                               that “financial management systems be designed with effective and efficient
                               interrelationships between software, hardware, personnel, procedures,
                               controls and data contained within the systems.” To be integrated, financial
                               management systems must have “a design that eliminates unnecessary
                               duplication of transaction entry.” In addition, JFMIP emphasizes:

                                            Having a single, integrated financial management system does
                                            not necessarily mean that each agency must have only one
                                            software application covering all financial management
                                            systems needs.        Rather, a single integrated financial
                                            management system is a unified set of financial systems and the
                                            financial portions of mixed systems encompassing the software,
                                            hardware, personnel, processes (manual and automated),
                                            procedures, controls, and data necessary to carry out financial
                                            management functions, manage financial operations of the
                                            agency, and report on agency’s financial status to central
                                            agencies, Congress, and the public.

                               GIPSA’s IT staff stated that they are developing a new application
                               architecture that will in effect combine the two current applications into one
                               application. Due to the corrective actions planned by GIPSA, we are not
                               recommending any further actions.


28
     JFMPIR-SR-02-01, dated November 2001
USDA/OIG-AUDIT/30099-1-SF                                                                                Page 30
                                                     AUDIT REPORT
Scope and Methodology
                   Our audit was part of a nationwide audit of selected USDA agencies. We
                   reviewed the adequacy of security over the entire GIPSA computer system
                   and network, the logical and physical access controls, and the controls over
                   the modification of application software.

                   We identified internal controls related to system vulnerabilities, security of
                   information technology resources, and application life cycle controls. We
                   reviewed these internal controls to ensure the proper management and
                   security of information technology within GIPSA. This audit did not cover
                   the actual testing of the data going through the computer programs. This
                   review only looked at the controls established for writing software
                   applications and for making modifications to those applications.

                   This review was done at the GIPSA Headquarters office located in
                   Washington, D.C., administered by the IT staff. Fieldwork was performed
                   from November 4, 2002 through December 15, 2002.

                   To accomplish our audit objectives, we performed the following audit steps
                   and procedures:

                      We reviewed IT security policies and procedures from OCIO, NIST,
                      GIPSA, and the General Accounting Office (GAO).

                      We interviewed responsible GIPSA officials managing the IT computer
                      systems.

                      We performed an Internet Security software scan on the GIPSA computer
                      system.

                      We analyzed records and controls established to ensure the integrity of
                      the IT security over the GIPSA computer system.

                   This audit was performed in accordance with generally accepted government
                   auditing standards.




USDA/OIG-AUDIT/30099-1-SF                                                                Page 31
                                    AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 1 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 32
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 2 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 33
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 3 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 34
                            AUDIT REPORT
Exhibit A – Agency Response
                                                                                           Exhibit A – Page 4 of 10

    1) Logical Access Control:

    [                                                                        ]
    [                                                                        ]
    [                                                  ]

    [                                                                            ]
    [                                                                                ]
    [                                                                 ]
    [

    [
    [
    [

    [
    [
    [
    [
    [               ]

    Currently, these remote users are in the process of transferring from the
     5200 to the secure method. This transfer process will be completed by the
    end of September 2003 at which time the 5200 no longer be used.

    2) Physical Access Control:

    GIPSA has adopted the OIG’s suggestion to install a solid wood panel behind
    the glass panel of the door to the server room. This was installed in March of 2003.

    Although the windows of the server room face out onto a courtyard, the courtyard
    is three stories up from a secured parking area. The courtyard is
    protected by an armed guard when open, and only permitted cars are allowed
    into the parking area. The parking area is secured with a locked iron gate after
    business hours. Therefore, the iron bars on the windows are unnecessary.

Recommendation No. 4

GIPSA has adopted OIG’s suggestion of removing the unsecured dial-in access to the GIPSA network. GIPSA will
use the more secure VPN method.

Recommendation No. 5

GIPSA now only allows VPN (secure method) access to its network.


USDA/OIG-AUDIT/30099-1-SF                                                                                Page 35
                                                AUDIT REPORT
Exhibit A – Agency Response
                                                                                     Exhibit A – Page 5 of 10




                   Recommendation No. 8

                   [                                                             ]
                   [                                 ]

                   Recommendation No. 9

                   GIPSA has established internal incident handing procedures. All incidents are
                   immediately reported to the ISSPM or GIPSA Help Desk. The ISSPM or GIPSA Help
                   Desk contacts the appropriate personnel to assist in responding to the incident.

                   Together, the incident is worked to mitigate security breaches and violations. An
                   incident report is filed and kept open until the incident is resolved.

USDA/OIG-AUDIT/30099-1-SF                                                                          Page 36
                                      AUDIT REPORT
USDA/OIG-AUDIT/30099-1-SF                  Page 37
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 6 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 38
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 7 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 39
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 8 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 40
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 9 of 10




USDA/OIG-AUDIT/30099-1-SF                                Page 41
                            AUDIT REPORT
Exhibit A – Agency Response
                                           Exhibit A – Page 10 of 10




USDA/OIG-AUDIT/30099-1-SF                                 Page 42
                            AUDIT REPORT
Glossary of Terms

Continuity Of Operations Plan (Coop) - This is a plan that will be implemented if a situation occurs
that requires the immediate and unexpected relocation of the GIPSA network from Washington, D.C.,
because of a national emergency or declaration of a disaster.

Local Area Network (LAN) – a local area network is a group of computers and associated devices
that share a common communications line and typically share the resources of a single process or
server with a small geographic area). Usually, the server has applications and data storage that are
shared in common by multiple computer users. A local area network may server as few as two or three
users or many as thousands of users.

Public Access Network – In computer networks, a public access network is a computer host or small
network inserted as a “neutral zone” between a company’s private network and the outside public
network. It prevents outside users from getting direct access to a server that has company data.

In a typical public access network configuration for a small company, a separate computer (or host in
network terms) receives requests from users within the private network for access to WEB sites or
other companies accessible on the public network. The public access network host then initiates
sessions for these requests on the public network. It can only forward packets that have already been
requested.

Users of the public network outside the company can access only the public access network host. The
public access network may typically also have the company’s Web pages so these could be served to
the outside world. However, the public access network provides Web pages might be corrupted but no
other company information would be exposed. Cisco, the leader maker of routers, is one company that
sells products designed for setting up a public access network.

Transmission Control Protocol/Internet Protocol (TCP/IP) - TCP/IP is a two-layer program. The
higher layer, Transmission Control Protocol, manages the assembling of a message or file into smaller
packets that are transmitted over the Internet and received by a TCP layer that reassembles the packets
into the original message. The lower layer, Internet Protocol, handles the address part of each packet
so that it gets to the right destination. Each gateway computer on the network checks this address to
see where to forward the message. Even though some packets from the same message are routed
differently than others, they’ll be reassembled at the destination.

Virtual Private Network (VPN) – A virtual private network is a way to use a public
telecommunication infrastructure, such as the Internet, to provide remote offices or individual users
with secure access to their organization’s network.




USDA/OIG-AUDIT/30099-1-SF                                                                      Page 43
                                          AUDIT REPORT
Informational copies of this report have been distributed to:

Agency Liaison Officer (4)
General Accounting Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)




USDA/OIG-AUDIT/30099-1-SF                                       Page 44
                                           AUDIT REPORT
